Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:
COUNTY OF NEW YORK

80381

AFFIDAVIT OF SERVICE

)

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 10th day of October 2019 deponent served 3 copies of the within
BRIEF IN OPPOSITION FOR THE INTERVENOR-RESPONDENT

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
202-507-0834
rienzi@law.edu
Attorneys for Petitioners

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202] 888-1741
deepak@guptawessler.com
Attorneys for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 10, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

~~d)~,
Howard Daniels

Sworn to me this
October 10, 2019
RAMIRO A. HONEYWELL

Case Name: Fulton v. City of Philadelphia.

Docket No.: 19-123

